<html>
<title> - EMPLOYMENT NEEDS OF AMISH YOUTH</title>
<body><pre>[Senate Hearing 107-94]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-94

                    EMPLOYMENT NEEDS OF AMISH YOUTH

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                      MAY 3, 2001--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
73-028 PS                   WASHINGTON : 2001
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402




                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            ERNEST F. HOLLINGS, South Carolina
LARRY CRAIG, Idaho                   DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          HARRY REID, Nevada
TED STEVENS, Alaska                  HERB KOHL, Wisconsin
MIKE DeWINE, Ohio                    PATTY MURRAY, Washington
                                     MARY L. LANDRIEU, Louisiana
                                     ROBERT C. BYRD, West Virginia
                                       (Ex officio)
                           Professional Staff
                            Bettilou Taylor
                             Mary Dietrich
                              Jim Sourwine
                        Ellen Murray (Minority)

                         Administrative Support
                             Correy Diviney
                       Carole Geagley (Minority)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Arlen Specter.......................     1
Statement of Hon. Joseph Pitts, U.S. Representative from 
  Pennsylvania...................................................     2
    Prepared statement...........................................     4
Statement of Hon. Mark Souder, U.S. Representative from Indiana..     5
    Prepared statement...........................................     7
Statement of Thomas M. Markey, Acting Administrator, Wage and 
  Hour Division, Employment Standards Administration, U.S. 
  Department of Labor............................................    10
    Prepared statement...........................................    12
Statement of Christ Blank, chairman, Old Order Amish Steering 
  Committee, Kinzers, PA.........................................    15
    Prepared statement...........................................    17
Statement of William Burkholder, owner, C.B. Hardwood Lumber Co., 
  Centerville, PA................................................    18
    Prepared statement...........................................    20
Statement of Herman Bontrager, Secretary/Treasurer, National 
  Committee for Amish Religious Freedom..........................    20
    Prepared statement...........................................    22
Statement of Noah Byler..........................................    27
Statement of John Byler..........................................    28
  

 
                    EMPLOYMENT NEEDS OF AMISH YOUTH

                              ----------                              


                         THURSDAY, MAY 3, 2001

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SH-216, Hart 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senator Specter.

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Good morning, ladies and gentlemen. The 
hearing of the Appropriations Subcommittee on Labor, Health and 
Human Services, and Education will now proceed with the clock 
striking 9:30.
    At the outset, we welcome representatives from the Amish 
who are here from not only Pennsylvania, but New York and Ohio. 
We welcome the distinguished Congressman Joe Pitts, who will be 
joined in a few minutes by Congressman Mark Souder from 
Indiana.
    Today's hearing involves legislation which has twice passed 
the House of Representatives, after the introduction by and 
support of Congressman Pitts, and similar legislation which has 
been introduced in the Senate by this Senator to amend the Fair 
Labor Standards Act to permit Amish youth, ages 14 to 18, to 
work under adult supervision in sawmills.
    This issue arises because Department of Labor regulations 
ban the employment of minors from working in sawmill 
operations. This poses a problem for Amish youth who finish 
their formal education in the eighth grade and have very few 
employment opportunities. The employment in the sawmills with 
their families provides an opportunity for them to continue 
their instruction in the workplace under adult supervision with 
continuing guidance.
    There has been opposition raised on constitutional grounds 
that legislation might confer benefits only to youths who are 
members of a religious sect, or division thereof, whose 
established teachings do not permit formal education beyond the 
eighth grade and that by conferring the benefit of working in a 
sawmill only to adherence of certain religions, the Department 
of Justice has contended that the bill appears to impermissibly 
favor religion to irreligion. My own view is that it is 
possible to have legislation which does not run afoul of the 
Constitution, and we have proposed just that.
    The Department of Labor, under the Clinton administration, 
opposed both Congressman Pitt's bill and my bill, questioning 
whether current regulations afford Amish minors equal 
protection under the laws and raised some questions about 
safety. I raised this issue yesterday with Secretary of Labor 
Elaine Chao who appears more flexible than her predecessors, 
and she has committed herself to studying the issue. It is my 
view that unless we can get administrative relief from the 
Department of Labor, legislation is entirely appropriate, and 
we are convening today's hearings to pursue just that matter.
STATEMENT OF HON. JOSEPH PITTS, U.S. REPRESENTATIVE 
            FROM PENNSYLVANIA
    Senator Specter. It is a pleasure to welcome my colleague 
from Pennsylvania's 16th congressional district encompassing 
Lancaster and Chester Counties. Congressman Joseph Pitts is a 
third term Congressman holding a bachelor's degree from Ashbury 
College, a Captain in the Air Force, a school teacher, a small 
business owner. He has had a distinguished record in the U.S. 
House of Representatives, serving on the Energy and Commerce 
Committee and on the International Relations Committee.
    Congressman Pitts, it is a pleasure to welcome you here and 
we look forward to your testimony. Our general rule is to turn 
the lights on at 5 minutes, but not for Congressmen.
    Mr. Pitts. Thank you, Senator. Thank you, Mr. Chairman.
    Today your subcommittee is addressing an issue very 
important to the Amish community who reside in over 20 States 
in this country. I want to thank you for holding this important 
hearing.
    People around the world know of the Old Order Amish as a 
people who till their land and direct their lives with faith, 
simplicity, and discipline. Traditionally Amish communities are 
centered around the family farm which requires input from the 
whole family. While caring for crops and animals, Amish parents 
show their children how to make a living without exposure to 
outside influences that contradict their beliefs.
    However, development pressures and the soaring price of 
farmland have forced the Amish to look for alternatives to 
farming, and now Amish can be found in small businesses making 
raw lumber, clocks, wagons, cabinetry, quilts, and many other 
things.
    Therefore, as they did on the family farm, the Amish now 
wish to have their youth work with them in these vocational 
settings. Typically the youth will learn a trade after the 
completion of Amish school, which is equivalent to an eighth 
grade education.
    The Amish view this work as part of their schooling since 
they often accompany a parent to the workplace, and they call 
this learning by doing.
    Unfortunately, these small Amish-owned businesses have 
received costly fines from the Department of Labor for having 
their young adults work alongside their fathers and uncles, 
even in family businesses.
    Mr. Chairman, recently an Amish businessman in my 
congressional district was fined $8,000 for having his own 
child in the front office of his business. This teenager was 
simply learning to use the cash register alongside her father. 
She was far from harm's way.
    These actions by the Department of Labor have severely 
threatened the lifestyle and religion of this respected and 
humble community.
    The Amish expect diligence, responsibility, and respect 
from their youth. They do not contribute to the social ills of 
our society, and they do not accept any assistance from 
Government programs. Our Government should not interfere with 
this humble community.
    Several of my colleagues, along with our Amish 
constituents, met with Department of Labor officials several 
times over the past 3 to 4 years to find a solution to this 
problem. Unfortunately, we received nothing but negative 
responses from the Department of Labor. I am hopeful that with 
a new administration in the White House, we will receive a more 
positive response this year.
    The Amish have a very unique situation. They complete their 
formal schooling at the end of eighth grade. They do not have 
the benefit of shop or vo-tech which my son and our youth have 
in high school. But they want their young people to learn a 
work ethic and a trade.
    We have a responsibility to evaluate the Amish in that 
light, and that is why I, along with numerous other members, 
last Congress introduced H.R. 221, legislation to address the 
employment needs of the Amish youth.
    H.R. 221 of the 106th Congress passed under suspension on 
March 3, 1999. The same bill, H.R. 4257, passed under 
suspension in the 105th Congress on September 28, 1998. It has 
bipartisan support in the House. However, as you know, this 
legislation has not moved in the Senate.
    This narrow legislation will only allow young adults of the 
Amish faith to accompany a parent or a relative to work in 
places of business where machinery is used to process wood 
products. Our bill requires that the young adult have adult 
supervision. It prohibits them from operating the machinery. It 
provides numerous safety protections for these individuals.
    Mr. Chairman, many communities like Lancaster County, PA, 
of my district, greatly appreciate the heritage and work ethic 
of the Amish, and we wish to keep them as a part of our 
communities. However, if the Amish continue to be attacked by 
the Federal or State governments, they will be driven out of 
our communities. Their strong heritage will be undermined by 
governmental interference.

                           PREPARED STATEMENT

    So, I urge the Senate to protect the Amish heritage. Mr. 
Chairman, I am very grateful for your assistance and for this 
hearing, and I am hopeful that we can work together to find a 
solution to this problem.
    Thank you for inviting me to testify at the hearing.
    [The statement follows:]
                  Prepared Statement of Rep. Joe Pitts
    Mr. Chairman, today your subcommittee is addressing an issue 
important to the Amish community who reside in over 20 states in this 
country. I thank you for holding this important hearing.
    People around the world know of the Old Order Amish as a people who 
till their land and direct their lives with faith, simplicity and 
discipline.
    Traditionally, Amish communities are centered around the family 
farm, which requires input from the whole family. While caring for 
crops and animals, Amish parents show their children how to make a 
living without exposure to outside influences that contradict their 
beliefs.
    However, increasing development pressures, and the soaring price of 
farmland, have forced the Amish to look for alternatives to farming. 
Now Amish can be found in small businesses making raw lumber, clocks, 
wagons, cabinetry, and quilts.
    Therefore, as they did on the family farm, the Amish now wish to 
have their youth work with them in these vocational settings. 
Typically, the youth will learn a trade after the completion of Amish 
school, or eighth grade.
    The Amish view this work as part of their schooling; since they 
often accompany a parent to the workplace.
    They call this ``learning by doing.''
    Unfortunately, these small, Amish-owned businesses have received 
costly fines from the Department of Labor for having their young adults 
work alongside their fathers and uncles, even in family businesses.
    Mr. Chairman, recently an Amish businessman in my congressional 
district was fined eight thousand dollars for having his own child in 
the front office of his business. This teenager was simply learning to 
use the cash register alongside her father. She was far from harm's 
way.
    These actions by the Department of Labor have severely threatened 
the lifestyle and religion of this respected and humble community.
    The Amish expect diligence, responsibility, and respect from their 
youth. They do not contribute to the social ills of our society, and 
they do not accept any assistance from government programs.
    Our government should not interfere with this humble community.
    Several of my colleagues, along with our Amish constituents, met 
with Department of Labor officials several times over the past two 
years to find a solution to this problem.
    Unfortunately, we received nothing but negative responses from the 
Department of Labor. I am hopeful that, with a new Administration in 
the White House, we will receive a more positive response this year.
    The Amish have a very unique situation. They complete their formal 
schooling at the end of eighth grade. They do not have the benefit of 
``shop'' and vo-tech our youth have in high school.
    We have a responsibility to evaluate the Amish in that light.
    That is why I, along with numerous other members, last Congress 
introduced H.R. 221, legislation to address the employment needs of 
Amish youth.
    H.R. 221 of the 106th Congress passed under suspension on March 3, 
1999. The same bill, H.R. 4257, passed under suspension in the 105th 
Congress on September 28, 1998. It has bipartisan support in the House. 
However, as you know, this legislation has not moved in the Senate.
    This narrow legislation will only allow young adults of the Amish 
faith to accompany a parent or relative to work in places of businesses 
where machinery is used to process wood products. My legislation 
requires that the young adult have adult supervision, it prohibits them 
from operating machinery, and it provides numerous safety protections 
for these individuals.
    Mr. Chairman, many communities, like Lancaster County, 
Pennsylvania, of my district, greatly appreciate the heritage and work 
ethic of the Amish, and we wish to keep them as a part of our 
communities.
    However, if the Amish continue to be attacked by the State and 
Federal government, they will be driven out of our communities.
    Their strong heritage will be undermined by governmental 
interference.
    I urge the Senate to protect the Amish heritage.
    Mr. Chairman, I am hopeful we can work together to find a solution 
to this problem.
    Thank you for inviting me to this hearing.

    Senator Specter. Thank you very much, Congressman Pitts.
STATEMENT OF HON. MARK SOUDER, U.S. REPRESENTATIVE FROM 
            INDIANA
    Senator Specter. We now turn to Congressman Mark Souder who 
is in his fourth term, representing Indiana's 4th district. He 
is chairman of the Government Reform Subcommittee on Criminal 
Justice, Drug Policy and Human Resources, and also serves on 
the House Committee on Education and the Workforce, as well as 
the Natural Resources Committee. Congressman Souder holds a 
bachelor's degree from Indiana University at Fort Wayne and an 
M.B.A. from the University of Notre Dame. Welcome, Congressman 
Souder, and we look forward to your testimony.
    Mr. Souder. Thank you very much. I apologize for being 
late. The chairman called an emergency meeting on the education 
bill that we are marking up.
    Senator Specter. Congressman Souder, I know how busy you 
are in the House. On a Thursday, it is tough to be every place. 
We are grateful to you for being here. We proceeded in the 
interest of time, and Congressman Pitts agreed, in your 
absence, as your de facto agent. We are pleased to have you 
here.
    Mr. Souder. Well, thank you. I am going to just make a few 
remarks, if you can put my written remarks in the record.
    Senator Specter. Without objection, they will be made a 
part of the record. We will be interested in hearing your 
extemporaneous comments.
    Mr. Souder. We share many things in Pennsylvania and 
Indiana, including my family's heritage. There is a Soudersberg 
just east of Lancaster and a Souderton just north of 
Philadelphia which has a number of my distant relatives. My 
great, great grandpa was Amish, left when he turned 18 and 
helped form the denomination that I grew up in in Indiana. I 
represent the 2nd, 7th, and 10th largest Amish settlements, the 
areas in LaGrange-Shipshewnna, Grabill-Harlan, and Berne-Geneva 
area, and in redistricting. It looks like I am going to get 
another of the areas in the Middlebury and Nappanee areas.
    All those settlements are Old Order, but I also even in the 
Old Order settlements have a lot of topless Amish and non-
topless Amish. In other words, unlike the liberal Amish in 
Pennsylvania, many of our Amish do not have tops on their 
buggies and cannot marry the Amish who have tops on their 
buggies because we have multiple different groups that are very 
conservative.
    It is very hard for them to maintain their lifestyle. The 
lands in Indiana, like in Pennsylvania and Ohio, which are the 
largest settlements, are increasingly under pressure from the 
growth of the cities and suburbs. As the families subdivide and 
save up all their earnings to get a little bit more farmland, 
they can barely exist.
    Generally speaking, the first place they will turn is 
woodworking. Often the woodworking will begin just in a barn 
while they are trying to farm in the morning and farm in the 
evening, but make a little additional income during the day so 
they can maintain their lifestyle. As the land gets more 
expensive, if they do not have that option, we have had some go 
up into the rural parts of Michigan, but they are being crowded 
there now too with tourism, or in other parts of the United 
States. Some are having to flee overseas. And a country of 
religious liberty, in fact, through good intentions in many 
cases, has put a severe strain on those who will not follow our 
way toward mechanization and automation of everything.
    I think that the compromise that we have is reasonable, as 
I have visited many of these facilities in my area. As 
Congressman Pitts said, the kids leave school, and part of 
their extended family is then to train them in a vocation, both 
in farming and in supplemental ways to earn an income in 
woodworking, generally speaking, making wood pallets or chests 
or other sorts of woodworking items, furniture.
    They do not and they are not allowed to actually work the 
machinery. The question is, particularly in these smaller sized 
facilities, but even a little bit larger, is it even practical 
to say that when these kids are, in effect, doing vocational 
education, that they cannot even be in the same building? Part 
of the reason they do this is to have the extended family to 
work together.
    I would also argue, as Congressman Pitts has said, that not 
only do we not see the injuries, but that we see a group of 
people who have a totally different lifestyle who are not 
exposed to other risks that many of our children have. For 
example, they are not out racing cars.
    Now, we have had, in my small hometown of 700, one case 
where two Amish kids were drag racing buggies, but that puts a 
whole different sense on the risk to them and the community. If 
they overturn, they might skin a leg.
    We also had one who violated their culture, and he was 
drinking too much. He took his buggy up on a sidewalk and one 
lady got scared.
    But this is a whole different mentality than the rest of us 
are used to. We do not see kids in the Amish community dying of 
drug overdoses, of hot-rodding around and dying and doing other 
dangerous activities.
    What we have is something that is essential to their being 
able to continue, the woodworking. In effect, if we do not make 
these changes, putting their culture at risk and their ability 
to function in our society--the Amish position is not, as I 
often have heard, that whoever is behind the wheel of an 
automobile is the devil. The devil is behind the wheel. It is 
not that they cannot get a ride from somebody else, and they 
can contract, as I am sure you have seen in Pennsylvania.
    The philosophy is that they should go slower because idle 
time is the devil's workshop. They believe in their culture 
that it is important that they work basically from sunup to 
sundown, and if they do not have these activities to keep 
people busy and the extended family, that is how you get into 
evil. They are not against the telephone per se. They are 
against the misuse of the telephone and the gossip.
    Now, some people have asked me, when we have debated this 
bill in the Education and Workforce Committee, does this not 
give the Amish a competitive advantage? I would say if you are 
willing to go without a telephone, if you are willing to go 
without a car and air conditioning and you want to join the 
Amish faith, it is not that you get a competitive advantage, 
you give up so many other things. They are scraping to barely 
make it.

                           PREPARED STATEMENT

    We did a study years ago when I worked for Congressman 
Coats and then Senator Coats. The areas that are the poorest in 
this country have the least usage of food stamps and AFDC, 4 of 
those top 10 counties are Amish. They do not need more money. 
All they are asking to do is, as long as they are not bothering 
others and as long as they are not endangering the children 
directly, please let them exist in this society because not 
everybody--I admit I am more of a materialist, but not 
everybody should have to be to be able to exist in America.
    I yield back my time.
    [The statement follows:]
                 Prepared Statement of Rep. Mark Souder
    Mr. Chairman and Members of the Committee, I appreciate this 
opportunity to testify today on the employment needs of Amish youth. I 
support the continued efforts of my colleagues from Pennsylvania, Mr. 
Specter and Mr. Pitts, to pursue a remedy to a problem that jeopardizes 
the culture and religion of a segment of society that asks so little 
from government: the Amish.
    I am not a passive observer on these issues. Not only do I 
represent the 3rd, 7th, and 10th largest ``old order'' Amish 
settlements in the country (about 20,000 altogether), but I am a direct 
descendent of one of the first Amish settlers in Northeast Indiana. In 
1846, my great-great grandfather settled in the Hoosier state. While he 
left the faith and culture around the turn of the century, I still have 
relatives who continue to practice the Amish tradition. Furthermore, I 
was raised in a small town--Grabill, Indiana--which is surrounded by 
Amish families. Growing up, I had the unique opportunity to witness 
first-hand the traditions of this religious and cultural community.
    I have been monitoring this issue very closely since it was first 
brought to my attention by Congressman Pitts in early 1997. Because 
Amish practice includes instilling a work ethic early in life, Amish 
children end their formal schooling after eighth grade and participate 
in state-approved apprenticeship programs in such fields as wood 
working and farming. In recent years several lumber facilities in 
Pennsylvania were heavily fined by the Department of Labor for 
employing Amish teenagers, aged 14-17 years. Some of the cases in which 
the Labor Department assessed fines involved 14- and 15-year-olds who 
were working in a wood shop stacking objects and sweeping floors and 
were not in close proximity to machinery. Since these events were 
brought to our attention, several of my colleagues and I have met with 
Labor officials and Amish representatives from Pennsylvania to discuss 
this issue. These meetings were called to discuss potential 
administrative remedies that would permit Amish youth to work with 
heavy machinery for eight hours a day. Unfortunately, while the 
Department of Labor officials appeared at initial meetings to be 
willing to find an administrative compromise, DoL officials later 
stated that administrative remedy was not possible based on current 
law.
    This impasse is what brings us here today to consider these issues. 
Current law must be clarified in order to continue the Amish tradition 
of providing teenagers with a practical education--one that allows them 
to work alongside their relatives and church family. In the 106th 
Congress, I was a cosponsor of H.R. 221, which passed the House of 
Representatives by unanimous consent. This bill, introduced by 
Congressman Pitts, would have allowed Amish teenagers to continue to do 
certain jobs where machinery is used to process wood products. I 
believe this bill was a fair compromise, representing nearly 18 months 
of negotiations with the Department of Labor, and I will support this 
bill again when it is reintroduced by Congressman Pitts in the House of 
Representatives this year.
    Simply put, this bill would allow Amish teenagers aged 14 through 
18 to continue to work in woodworking facilities while including sound 
provisions to protect these young workers. As a father of three 
children--two of whom are of working age--I would never advocate for a 
bill that would place teenagers in an unduly unsafe work environment. 
Safety provisions have been carefully considered and were included in 
this legislation. The bill would require that these young workers be 
supervised by adults who know and care about them. It also would 
prohibit Amish youth from working with power-driven machinery and 
require these teenagers to be protected from flying debris, excessive 
noise, and sawdust.
    At the same time, I believe this bill would preserve the 
traditional way of life of the Amish, whose youth finish their formal 
education by the eighth grade and then turn to a different style of 
religious, cultural, and ``vocational'' education. This bill would 
protect a truly endangered religion and culture that cannot afford to 
be trampled on by federal micro-management. As many of us understand, 
the Amish way of life is largely self-sufficient and agricultural. Such 
a lifestyle limits their interaction with the government.
    Farming is becoming an increasingly difficult livelihood for many 
Amish--unplowed land is difficult to find and increasingly expensive, 
and competing with industrial farms that use heavy equipment is 
overwhelming to small Amish family farms. Many Amish families have been 
forced into corollary industries like arts & crafts, woodworking, home 
building, pallet building, and furniture making. Woodworking is a 
historic byproduct of agriculture that can be done as a local industry. 
I believe the federal government should not unduly micro manage the 
Amish woodworking environment. To do so could force into extinction a 
culture and religion that is fundamentally important to this country.
    The Amish represent a unique segment of Americans that rely on 
self-sufficiency rather than assistance from government. They are a 
peace-loving people who came to America in the Anabaptist tradition to 
escape government regulation and persecution, so they could practice 
their religion and faith without government interference. Government 
bureaucracy threatens the Amish people's very way of life. The Amish 
are an important part of our heritage in northeast Indiana, and I 
believe we must do what we can to protect their religious beliefs and 
practices. If we fail to do so, we run the risk of forcing these 
hardworking, family-oriented people to leave our communities in search 
of religious freedom elsewhere. Let's not hinder their ability to 
continue providing for themselves and their families, or to maintain 
their cultural and religiously-based ``learn by doing'' 
apprenticeships.
    Again, thank you for inviting me to testify on this issue today.

    Senator Specter. Thank you very much, Congressman Souder 
and Congressman Pitts. I think that the factors which you have 
testified to really go to the issue of freedom of religion 
contrasted with a violation of the Establishment Clause on any 
special considerations here.
    I am intrigued, Congressman Souder, by your comment that a 
practice of not marrying where the different families have 
different style carriages, one with tops and one without tops. 
Will you amplify that?
    Mr. Souder. Yes. In the community, the really strict Old 
Order, there are a range of Amish. They even have what they 
call Black Car Amish or King's Amish. Those are really 
Mennonites.
    For example, in the Lancaster area and going north from 
Lancaster, mostly you see the carriages and the tops on the 
buggies. But in my hometown area and in Berne and Geneva and in 
southwest Indiana, they are not allowed to have anything over 
their heads. They have added boxes in the back because kids in 
the English community, as they would say, have rocked them. 
There was a baby killed in one Amish buggy because kids were 
just throwing stones at the buggy and a baby was killed. So, 
they have allowed to put boxes on the back now, even in the Old 
Order.
    But part of the philosophy even in the most conservative 
Amish group----
    Senator Specter. Boxes on the back?
    Mr. Souder. In other words, in a buggy you will have a seat 
where the people who are driving the buggy sit, but there is 
usually a storage area in the back. Now they have a box that 
comes up over the back seat where small children----
    Senator Specter. Head level to stop a lateral object from 
striking them in the head?
    Mr. Souder. Yes, which is a pathetic commentary. I do not 
think any of the deaths have been on purpose, but there have 
been a number of them because it is fun for other kids who are 
out partying or whatever to throw stones at the Amish because 
they are different, much like other groups in our society. It 
is not just kind of the traditional groups you hear. The Amish 
suffer this persecution all the time. They are laughed at 
because of the way they dress. They are mocked because often 
they do not speak English as much or they are not supposed to 
to outsiders.
    But I asked one of my friends, I said, do you not get cold, 
or do you just kind of get used to it by not having any top on 
your buggy? He said, we have colds all winter long. The reason 
they sacrifice with that is that part of the assumption is that 
if you do not have a top on your buggy and it is cold out or 
hot out, you are going to think before you go into town, before 
you go gallivanting around and getting in trouble because there 
is some uncomfortability to it. It is usually serious tasks. 
These are a serious people, and that is the philosophy.
    Senator Specter. How about the marriage issue?
    Mr. Souder. The marriage issue outside their faith do you 
mean?
    Senator Specter. Well, no. You had made a comment, as I 
understood it----
    Mr. Souder. Oh, they cannot marry. Much like a very 
conservative Old Order Amish who does not allow tops--and each 
bishop gets to set the guidelines for their subgroup. They 
cannot marry the more liberal Amish any more than, say, by 
traditional doctrine, a Catholic could marry a Mennonite. In 
other words, it is almost as rigid a differentiation in some of 
the subgroups of Amish.
    Senator Specter. And the differentiation would apply even 
if the distinction is having a top on the carriage.
    Mr. Souder. Yes, although generally speaking, that is a 
sign that--for example, in my Grabill-Harlan community, they 
cannot have a pay phone on their porch, which in parts of 
Pennsylvania you can have a pay phone on your porch. They can 
have one at a corner, but the assumption is that the closer 
that phone gets to the house, the more gossip you are going to 
do. Therefore, if you are going to walk out into the cold and 
make a call, it is probably going to be a serious call as 
opposed to just kind of gossiping about your neighbors.
    I used the topless because it is the most dramatic thing 
that outsiders can see, but it is usually a sign of this 
creeping liberalism, as they would say, that would also put a 
phone on your porch. It might even have a few colors. You can 
see in some parts of Pennsylvania, some Amish have a little bit 
of the brighter purple shirts as opposed to the pure white or 
dark blue.
    Senator Specter. Well, it certainly illustrates the views 
and convictions of the Amish which they are entitled to. They 
are very strict, as they choose to be, about standards of 
conduct.
    Well, it is a very interesting matter. My sense is that 
when it is better understood in the Senate, we will have a 
little better luck getting the legislation through.
    As you gentlemen know, this is an appropriations 
subcommittee, so we cannot mark up a bill and send it in, but I 
am turning in my mind whether we might offer this as an 
amendment to the education bill or whether we may be able to 
persuade the authorizers to have a markup and carry it out. So, 
we will give it very careful attention.
    Congressman Pitts?
    Mr. Pitts. Mr. Chairman, my son, when he was 14, had shop 
class in high school and they had 15 or 16 students in the shop 
class. He made our home a beautiful table using a band saw and 
power tools. There was one teacher in that shop class.
    Now, we are not asking, with the legislation, that these 
young people be even permitted to use the power tools, just be 
in the vicinity, sweep sawdust, glue lumber, fill out 
paperwork, learn the work ethic of the trade, but not actually 
use the power tools. We have even put common sense safety 
precautions in here, like barriers, and they are supervised by 
an adult and protected from wood particles or other flying 
debris. So, we think that this is a very good compromise.
    Senator Specter. Well, thank you very much. That leads us 
very naturally into the representative of the Department of 
Labor. We thank you very much for coming, Congressman Pitts, 
Congressman Souder, and good luck on your agenda today. I know 
you are very busy in the House.
STATEMENT OF THOMAS M. MARKEY, ACTING ADMINISTRATOR, 
            WAGE AND HOUR DIVISION, EMPLOYMENT 
            STANDARDS ADMINISTRATION, U.S. DEPARTMENT 
            OF LABOR
    Senator Specter. Our next witness is Mr. Tom Markey, Acting 
Administrator of the Wage and Hour Administration, Department 
of Labor. Mr. Markey provides leadership in the administration 
and the enforcement of a variety of labor standards that 
enhance the welfare and protect the rights of the Nation's 
workers. He served as a 1st Lieutenant in the Army and holds a 
bachelor's degree from Rutger's University. Thank you for 
joining us, Mr. Markey.
    In accordance with our practice, any statement will be made 
a part of the record in full, and we will ask you to limit your 
comments to 5 minutes as our lights will record the timing. You 
may proceed.
    Mr. Markey. Mr. Chairman, thank you for the invitation to 
appear today to discuss the Fair Labor Standards Act child 
labor provisions and the Department of Labor's implementing 
regulations. Specifically, I will discuss how the current 
statutory and regulatory provisions apply to youth employment 
in lumber and woodworking occupations. I would also like to 
talk about our review of two proposals previously suggested by 
the Amish community to employ its youth in sawmilling and 
woodworking industries.
    Let me first affirm the Department's respect for the 
cultural and religious traditions of the Amish community. We 
recognize the challenges the community faces in preserving 
these traditions and way of life.
    As their faith prescribes, Amish children end their formal 
education upon completion of the eighth grade. Thereafter, they 
are exempt from State laws making school attendance compulsory. 
For this reason, the Department permits Amish youth who have 
completed the eighth grade and are at least 14 years of age to 
work more hours than are normally permitted 14- and 15-year-
olds and to work during traditional school hours. This is a 
longstanding accommodation made by the Department.
    Following the end of their formal education, Amish youth 
begin working alongside their families and others in the 
community. In the past, many Amish children worked on a family 
farm. However, with farmland becoming scarce and expensive, 
these opportunities have declined. Many of the young people now 
transition to non-farm occupations like woodworking. As I will 
discuss, however, the employment of youth in sawmill and 
woodworking industries is, like many other industries, limited 
by the statutory and regulatory requirements of the FLSA.
    The FLSA specifically prohibits minors under the age of 16 
from working in manufacturing. This includes sawmill and 
woodworking industries. The statute also directs the Secretary 
of Labor to prohibit the employment of minors under the age of 
18 in occupations found to be particularly hazardous or 
detrimental to their health. The Secretary makes these 
determinations in Hazardous Occupation Orders issued through 
the rulemaking process. There are currently 17 orders in non-
agricultural industries, and two are of particular concern.
    HO No. 4 prohibits minors under 18 years of age from 
assuming any occupation in a sawmill. Not only are the tasks in 
these areas too dangerous for young workers, the areas 
themselves are considered too dangerous. This order does, 
however, contain a limited exception which would permit 16- and 
17-year-olds to perform tasks such as cleaning up the yard and 
working in offices and repair or maintenance shops that are not 
in the sawmill building. 14- and 15-year-olds may only work in 
offices and only if the work does not entail entering the 
sawmill building.
    HO Order No. 5 prohibits minors under the age of 18 from 
operating and assisting to operate most power-driven 
woodworking machines. Until they reach the age of 18, young 
workers can only operate machines or tools not prohibited by 
the order and can carry out such tasks as moving materials 
around and handling or shipping lumber products. 14- and 15-
year-olds employed by the woodworking operation may only work 
in the offices.
    In 1966, the Department had an enforcement effort in 
western Pennsylvania and found child labor violations in 
sawmills. Three of the establishments investigated were Amish-
owned and many others employed Amish youth.
    Following these investigations, the Wage and Hour Division 
of the Department met with members of the Old Order Amish and 
their congressional representatives to discuss a request for an 
accommodation that would permit Amish youth to work in the 
sawmill and other woodworking industries. Departmental 
representatives explained the statutory mandate that youth 
under 16 may not be employed in manufacturing, the child labor 
hazardous orders in question, the basis for these orders, and 
the Pennsylvania law prohibiting minors under 18 from work 
involving woodworking equipment and saws. At that time, the 
Department made no specific accommodation but did offer 
compliance assistance and outreach to the Amish community.
    In 1997, at the request of congressional representatives, 
the Department explored the feasibility of two specific 
proposals to allow 16- and 17-year-olds to work in sawmills. 
The first proposal would have allowed 16- and 17-year-olds to 
work in the sawmill building as long as they remained at least 
150 feet away from the equipment. The Department decided and 
continues to believe that such a rule would be very difficult 
to administer. It would be difficult to substantiate whether or 
how often any distance rule was observed. Moreover, it would be 
difficult for the employer to comply because youth would likely 
be called to approach the machinery----
    Senator Specter. Mr. Markey, your time has expired. I 
believe the staff told you it would be 5 minutes. Your full 
statement will be part of the record. Could you summarize the 
balance?
    Mr. Markey. Yes, I will.

                           PREPARED STATEMENT

    The injury rates in these occupations are extremely high. 
They are double that in all other industries. Because of that, 
with young workers' inexperience, smaller size, immaturity, and 
lack of training, it would be very difficult for the Department 
to establish a regulatory record that would support a change in 
the existing hazardous occupation orders in light of the 
identified hazards.
    [The statement follows:]
                 Prepared Statement of Thomas M. Markey
    Mr. Chairman and Members of the Subcommittee, thank you for the 
invitation to appear today to discuss the Fair Labor Standards Act 
(FLSA) child labor provisions and the Department of Labor's 
implementing regulations. Specifically, I will discuss how the current 
statutory and regulatory provisions apply to youth employment in lumber 
and woodworking occupations. I would also like to talk about our review 
of two proposals previously suggested by the Old Order Amish community 
to employ its youth in the sawmilling and woodworking industries.
    Let me first affirm the Department's respect for the cultural and 
religious traditions of the Amish community. We recognize the 
challenges the community faces in preserving these traditions and way 
of life.
    As their faith prescribes, Amish children end their formal 
education upon completion of the eighth grade. Thereafter, they are 
exempt from state laws making school attendance compulsory. For this 
reason, the Department permits Amish youth who have completed the 
eighth grade and are at least 14 years of age to work more hours than 
are normally permitted 14- and 15-year-olds and to work during 
traditional school hours. This is a longstanding accommodation made by 
the Department.
    Following the end of their formal education, Amish youth begin 
working alongside their families and others in their community. These 
early work experiences allow them to become self-reliant within the 
community and teach them the values associated with a positive work 
ethic. In the past, many Amish children worked on a family farm. 
However, with farmland becoming scarce and expensive, the opportunities 
for Amish children to work on a family farm have declined. Many of the 
young people who want to remain with their families now transition to 
non-farm occupations like woodworking. As I will discuss, however, the 
employment of youth in the sawmill and woodworking industries is, like 
many other industries, limited by the statutory and regulatory 
requirements of the FLSA.

                      FLSA CHILD LABOR PROVISIONS
    Mr. Chairman, the FLSA specifically prohibits minors under the age 
of 16 from working in manufacturing, which includes the sawmill and 
woodworking industries. The statute also directs the Secretary of Labor 
to prohibit the employment of minors under the age of 18 in occupations 
found to be particularly hazardous or detrimental to the health or 
well-being of these young workers. The Secretary makes these 
determinations in Hazardous Occupation Orders issued through the 
rulemaking process. There are currently 17 Orders in non-agricultural 
industries, and two are of particular concern for this issue.
    Hazardous Occupations Order No. 4 prohibits minors under 18 years 
of age from assuming any occupation in the sawmill itself, the log pond 
area, or the log storage yard. Not only are the tasks performed in 
these areas too dangerous for young workers, the areas themselves are 
too dangerous. The Hazardous Occupation Order does, however, contain a 
limited exception which would permit 16- and 17-year olds to perform 
tasks such as cleaning up the yard, and working in offices and repair 
or maintenance shops that are not in the sawmill building.
    Similarly, fourteen and 15-year-olds may work in the offices of 
sawmills only if such work does not entail entering the sawmill 
building.
    Hazardous Occupations Order No. 5 prohibits minors under the age of 
18 from operating, assisting to operate, setting-up, adjusting, 
repairing, oiling or cleaning most power-driven woodworking machines. 
Until they reach the age of 18, young workers can operate machines or 
tools not prohibited by the Order and can carry out tasks such as 
moving materials around and handling or shipping of lumber products. 
However, the safeguards put in place by Hazardous Occupations Order No. 
4 prohibit them from performing these tasks specifically in sawmills.
    Fourteen- and fifteen-year-olds employed by woodworking operations 
may work only in the offices, where they are permitted to operate most 
office machines.
    The Fair Labor Standards Act limits work hours for fourteen- and 
fifteen-year-olds. Normally, such youth are prohibited from any 
employment during school hours and, on school days, they are limited to 
working 3 hours per day and then only up to a total of 18 hours in a 
school week. However, as I mentioned earlier, Amish children of this 
age group who have been exempted from their state's compulsory school 
attendance laws may work during normal school hours.

                                 ISSUE
    A 1996 enforcement effort in Western Pennsylvania sawmills found 
many child labor violations. Three of the establishments investigated 
were Amish-owned and many others employed Amish youth. Following these 
investigations, the Wage and Hour Division began meeting with members 
of the Old Order Amish and their Congressional representatives to 
discuss a request for an accommodation that would permit Amish youth to 
work in the sawmill and other woodworking industries. Those discussions 
focused on the statutory and regulatory requirements. Departmental 
representatives explained the statutory mandate that youth under 16 may 
not be employed in manufacturing; the child labor Hazardous Occupation 
Orders in question; the basis for these orders; and the Pennsylvania 
State law prohibiting minors under 18 from work involving woodworking 
equipment and saws. At that time, the Department made no specific 
accommodation, but did offer compliance assistance and outreach to the 
Amish community.
    In 1997, at the request of Congressional representatives, the 
Department explored the feasibility of two specific proposals to allow 
16- and 17-year-olds to work in sawmills. The first proposal would have 
allowed 16- and 17-year-olds to work in the sawmill building as long as 
they remained at least 150 feet away from the sawmill equipment. The 
Department decided, and continues to believe, that such a rule would be 
very difficult to administer. It would be difficult to substantiate 
whether or how often any distance rule was observed. Moreover, it would 
be difficult for employers to comply because Amish youth would likely 
be called upon to approach the machinery while performing non-equipment 
related tasks or receiving instructions, putting them at risk of injury 
by the equipment or by projectiles from the equipment. More 
importantly, this rule would not be feasible in most Amish sawmills. 
These sawmills typically have such compact operations that any worker 
who must stay 150 feet away from the equipment would be limited to 
working outside of the building.
    The second suggested remedy would have allowed 16- and 17-year-olds 
to work in a physically separate part of the sawmill building. This 
proposal likewise did not seem feasible. Based on visits to 
representative sawmills, there are no apparent operations that could 
take place in a separate walled-off room within a sawmill.
    Even at 150 feet away from the equipment or in a physically 
separate part of a sawmill building, youths may still be exposed to 
some danger. Hazardous Occupations Order No. 4 was explicitly based not 
just on hazards from the equipment, but on hazards inherent in the 
sawmill operations, such as falling lumber.
    The injury rates in these industries are high. Sawmills are 
dangerous places to work, even for adults. Between 1995 and 1999, an 
average of 25 workers a year were fatally injured on-the-job in 
sawmills nationwide. Most were killed when they were either struck by 
an object or caught in a piece of equipment. The rate of injury in the 
lumber and wood products industry, which includes sawmills, is likewise 
high. In 1999, non-fatal injuries occurred at a rate of 12.5 per 100 
full-time workers, over twice the national average for all industries 
(5.9 per 100 full-time workers). A five year average of non-fatal 
injuries and illness in sawmills suggests nearly 8,000 workers annually 
suffer injuries severe enough to warrant a day away from work.
    Young workers' inexperience, smaller size, immaturity, and lack of 
training make employment in this industry even more dangerous for 
children. These factors are that much more significant for 14- and 15-
year-olds. Even an adult presence in the workplace cannot always 
protect children from the split-second mistake that could cost them a 
finger, a hand, or worse. Establishing a regulatory record that would 
support a change in the existing Hazardous Occupation Orders--in light 
of identified industry hazards--would present a difficult challenge.

                               CONCLUSION
    The Department is always happy to work with the Amish community so 
that it fully understands child labor obligations and their basis, and 
is fully aware of options on safe and legal opportunities for employing 
young people. For example, 16- and 17-year-olds may perform many 
woodworking tasks, like assembling furniture and sanding wood pieces, 
using traditional hand-powered tools.
    Mr. Chairman, any accommodation made to address this issue--whether 
statutory or administrative--must be accomplished in a way that 
respects the cultural traditions of the Amish and protects youths from 
hazardous work.
    We are prepared to evaluate any suggestions, including legislation, 
that you or other Subcommittee members may have for accommodating the 
needs of the Amish community while ensuring that youth are employed in 
circumstances that--as required by law--are not hazardous to their 
health or well-being.
    We agree that work experience can be beneficial for young people, 
and we will help you explore opportunities for legal and safe 
employment of Amish youth. Thank you for the invitation to testify 
today and I would be pleased to answer any questions.

    Senator Specter. Mr. Markey, let me ask you about the 
legislation which I proposed, which would allow 14- to 18-year-
olds to perform limited duties such as sweeping, stacking wood, 
and writing orders with safety provisions which prohibit youths 
from operating machinery and requiring the use of eye and body 
protection. What would the dangers be if the activities were so 
limited?
    Mr. Markey. Well, first, with regard to 14- and 15-year-
olds--oh, you are talking about legislation that would change 
it.
    Senator Specter. Yes.
    Mr. Markey. The dangers would be projectiles probably and 
falling lumber piles. In the tight areas of sawmills, with 
forklifts and such, there is a possibility----
    Senator Specter. Projectiles?
    Mr. Markey. Wood projectiles usually, chips from the 
sawing.
    Senator Specter. Perhaps that could be accommodated by an 
additional requirement of being a certain distance from the 
saw?
    Mr. Markey. We had representatives look at some of these 
sawmills, and the areas are not that large, surely not 150 
feet. I think these projectiles----
    Senator Specter. Well, a projectile is not going to go 150 
feet. What is the maximum distance a projectile would go?
    Mr. Markey. I really do not know that, sir.
    Senator Specter. Well, would you find that out? Make a 
determination as to where the concern is as to projectiles.
    What I would like to see us do--Secretary Chao testified 
yesterday. I think this may well be a matter to handle 
administratively, but if it cannot be handled administratively, 
then it is a matter for congressional action. Congress may not 
pass it.
    You raise a specific issue on projectiles. I would ask you 
to go back and delineate the scope of that problem so we might 
find a way to solve it.
    Mr. Markey. We will do that, Mr. Chairman.
    Senator Specter. Any other specific danger that you see 
beyond projectiles? You say falling?
    Mr. Markey. Falling lumber piles, yes.
    Senator Specter. Well, we could write a provision in about 
not being near falling lumber piles. If you are talking about 
sweeping and writing orders, you are in a pretty safe line.
    I would like you to take a look at the legislative 
proposals, what has passed the House and what is in the Senate 
bill, and if you can identify other dangers, let us try to work 
on ways of solving them. That is what I would like you to do. 
Fair enough?
    Mr. Markey. Yes, Mr. Chairman, we will do that.
    Senator Specter. Anything else you would like to add?
    Mr. Markey. No.
    Senator Specter. Okay, Mr. Markey, thank you very much.
    We turn now to panel three, Mr. Christ Blank, Mr. Bill 
Burkholder, Mr. Herman Bontrager. Would you gentlemen step 
forward please?
    The media has already been advised that there are not to be 
any cameras. I do not see any in the hearing room in any event, 
but I raise that admonition just as a matter of form.
STATEMENT OF CHRIST BLANK, CHAIRMAN, OLD ORDER AMISH 
            STEERING COMMITTEE, KINZERS, PA
    Senator Specter. Mr. Blank is both a farmer and an 
accountant. He does tax work for Amish clients. He is Chairman 
of the Old Order Amish Steering Committee, a native of 
Lancaster, PA.
    As I had announced before, Mr. Blank, the green light goes 
on when you start. The yellow light comes on at 4 minutes, and 
the red light pops up at 5 minutes. We look forward to your 
testimony, sir.
    Mr. Blank. Thank you. Mr. Chairman and committee members, 
it is with appreciation, but humbleness, that we come before 
your committee today. We wish to thank you for the opportunity 
to bring some of our concerns before you.
    I am speaking here on behalf of many Old Order Amish and 
Mennonite communities throughout the United States. In recent 
years, we have been getting more and more complaints of Amish 
and Mennonite businesses being fined for allowing boys under 
age 18 to work in their place of business. Our concern is the 
infringement of these child labor laws on our way of life.
    As many of you undoubtedly know, the Amish way of life and 
religious beliefs prohibit formal education beyond the eighth 
grade level. Typically the Amish youth leave school at the end 
of eighth grade, but their education does not stop. Instead, 
they only begin to absorb in earnest the knowledge and skills 
needed to earn a livelihood and support a family. Upon 
completion of the eight terms of elementary school, many Amish 
children are enrolled in an informal vocational class of 
learning by doing under parent and church supervision to 
further prepare them to enter into the adult workplace. This 
informal vocational class is recognized by the U.S. Supreme 
Court ruling in Wisconsin v. Yoder as a legal alternative to 
the compulsory school attendance laws.
    At age 14, an Amish boy or girl is considered to be ready 
for a full course of training, a training that requires 
learning by doing. This adolescent period is of utmost 
importance to our religious status. We must not tolerate 
idleness during these adolescent years. Therefore, we see a 
dire need that our youth learn a trade or remain occupied, 
preferably under the supervision of the parent or church 
member.
    It is a longstanding Amish belief and tradition to instill 
good work ethics in our children at a young age and to start 
training a child at a fairly young age to become a self-
supporting, respectful, and law-abiding citizen. We strongly 
believe the ages 14 through 17 to be a very tender receptive 
age in which to instill these longstanding Amish values and 
work ethics in our children. We believe that forced idleness in 
this age to be detrimental to our longstanding Amish way of 
raising our children and teaching them to become good, 
productive citizens.
    We recognize that historically the child labor laws have 
been more lenient on farm labor, especially on a family farm. 
For many years, our livelihood was largely based on 
agriculture, and for many it still is. However, due to many 
reasons beyond our control, the trend is gradually forcing more 
and more of our youth to learn other trades. We try to 
encourage an occupation where the youth is learning by doing by 
working in a place where the father or a member of the church 
is available to assist him.
    We have many Amish-owned or operated sawmills among our 
communities. We also have many woodworking shops. Our youth are 
well-qualified and capable of providing hand labor in stacking 
and sorting lumber as it comes away from the saws. This sorting 
and stacking operation usually occurs some distance away from 
the saws themselves. However, under present regulations, no one 
under age 18 is allowed to work in a sawmill.
    We have in the audience several owners or sawmill operators 
who were investigated and fined for allowing boys under age 18 
to work in these various situations described above.
    In our small woodworking shops, there are many occupations 
our children would be capable of performing. However, more and 
more of our small woodworking shops are finding themselves in 
violation with the child labor laws because of power tools that 
are needed to be efficient. Under present regulations, even the 
owner's own boy could not work until age 16 in a manufacturing 
operation or age 18 in any occupation which the Secretary of 
Labor shall declare to be hazardous.
    We had a situation recently in Pennsylvania where an Amish 
person had a sawmill. He had two of his own boys working there. 
Due to a situation that occurred at a neighboring sawmill, the 
Department of Labor came out and investigated this particular 
situation here. While they did not fine the man for having his 
own children working there, he did receive a very stern warning 
from the Department of Labor saying, if we come back again, 
find these boys working here, we will shut down your operation. 
That has, of course, created a concern in the community.
    There seems to be a lot of government interest in finding 
ways to better prepare today's youth to enter into today's 
workforce. Many States are drafting school to work acts. It 
seems coincidental that at the same time these Amish are being 
fined for pursuing a system that has proved successful in 
preparing our youth for adulthood and to be respectful, self-
supporting citizens.
    We realize that the object of child labor law is to protect 
the children. We Amish share your concern for the safety of the 
workplace. We have in the audience here a member of an Amish 
safety committee that was set up----
    Senator Specter. Mr. Blank, your time has expired. Your 
full statement will be made a part of the record. So, if you 
could summarize, we would appreciate it.

                           PREPARED STATEMENT

    Mr. Blank. So, what we would ask and plea of you men of 
authority is to try to find some reasonable solution to the 
current problem and concern that we bring before you today. We 
wish you many blessings and the guidance from above in 
performing your many, very important duties as elected 
officials of our country. And may the Lord bless you. Thank 
you.
    [The statement follows:]
                 Prepared Statement of Christ K. Blank
    Mr. Chairman and Committee members, It is with appreciation, but 
humbleness, that we come before your committee today. We wish to thank 
you for the opportunity to bring some of our concerns before you.
    I am speaking here on the behalf of the many Old Order Amish and 
Mennonite communities through out the United States. In recent years we 
are getting more and more complaints of Amish & Mennonite businesses 
being fined for allowing boys under age 18 to work in their place of 
business. Our concern is the infringement of these Child Labor Laws on 
our way of life.
    As many of you undoubtedly know, the Amish way of life and 
religious beliefs prohibit formal education beyond the eighth grade 
level. Typically, the Amish youth leave school at the end of eighth 
grade, but their education does not stop there. Instead, they only 
begin to absorb in earnest, the knowledge and skills needed to earn a 
livelihood and support a family. Upon completion of the eight terms of 
elementary school, many Amish children are enrolled in an informal 
vocation class of learning by doing under parent and church supervision 
to further prepare them to enter into the adult work place. This 
informal vocational class is recognized by the United States Supreme 
Court ruling in Wisconsin v. Yoder, as a legal alternative to the 
compulsory school attendance laws.
    At age 14, an Amish boy or girl is considered to be ready for a 
full course of training. A training that requires ``learning by 
doing''. This adolescent period is of utmost importance to our 
religious status. We must not tolerate idleness during these adolescent 
years, therefore, we see a dire need that our youth learn a trade or 
remain occupied, preferably under supervision of a parent or church 
member. It is a long-standing Amish belief and tradition to instill 
good work ethics in our children at a young age and to start training a 
child at a fairly young age to become a self-supporting, respectful and 
law abiding citizen. ``Train up a child in the way he should go and 
when he is old he will not depart from it.'' (Proverbs 22:6). We 
strongly believe the ages 14 through 17 to be a very tender receptive 
age in which to instill these long standing Amish values and work 
ethics in our children. We believe that forced idleness in this age to 
be detrimental to our long-standing Amish way of raising our children 
and teaching then to become good productive citizens. Keeping young 
hands busy also keeps them out of mischief.
    We recognize that, historically, the Child Labor laws have been 
more lenient on farm labor, especially on a family farm. For many years 
our livelihood was based largely on agriculture and for many still is. 
However due to many reasons beyond our control, the trend is gradually 
forcing more and more of our youth to learn other trades. We try to 
encourage an occupation where such youth is learning by doing by 
working at a place where his father or a member of the church is 
available to supervise him.
    Due to the high cost of our dwindling supply of farm land, more and 
more of our families are being forced to start small businesses such as 
woodworking shops, welding shops, sawmills, pallet shops etc. This is 
in keeping with the Amish tradition of operating a family business so 
the family can work together.
    We have many Amish owned or operated sawmills among our 
communities. Our youth are well qualified and capable of providing hand 
labor in stacking and sorting the lumber as it comes away from the 
saws. This sorting and stacking operation usually occurs some distance 
away from the saws themselves. However, under the present regulations 
no one under age 18 is allowed to work in a sawmill building. We have 
in the audience several owners of sawmill operations that were 
investigated and fined for allowing boys under age 18 to work in the 
very situation described above. None of the owners were aware that they 
were in violation of the child labor law until the investigator showed 
up. They were told to send the boys home and warned that if he (the 
investigator) comes back again in several weeks and finds the boys back 
on the premises, he will shut the whole operation down. These threats 
created a great concern in the area, not only among the Amish, but also 
among their non Amish neighbors. They received no warning before they 
were fined even though the owners indicated they would comply with the 
order.
    One of the owners related an incident to me where one of the boys, 
whom he was required to send home, came back and asked in tears, ``When 
can I come to work again?'' The owner of course had to say ``Not until 
you are eighteen.''
    In our small woodworking shops there are many occupations our youth 
would be capable of performing, however, more and more of our small 
woodworking shops are finding themselves in violation with the child 
labor laws because of the power tools that are needed to be efficient. 
Under the present Regulations even the owners own boy could not work 
until age 16 in a manufacturing operation or age 18 in any occupation 
which the Secretary of Labor shall declare to be hazardous.
    There seems to be a lot governmental interest in finding ways to 
better prepare today's youth to enter into today's workforce. Many 
states are drafting School to Work Acts. It seems coincidental that at 
the same time, these Amish are being fined for pursuing a system which 
has been proven successful in preparing our youth for adulthood and to 
be respectful, self-supporting citizens.
    In Wisconsin v. Yoder, Dr. Donald Erickson testified that the Amish 
System of learning by doing was an ``ideal system'' of education in 
terms of preparing Amish children for life as adults in the Amish 
community. He further stated, ``Many public educators would be elated 
if their programs would be as successful in preparing their students 
for productive community life as the Amish system seems to be.''
    We realize that the object of the Child Labor laws is to protect 
the children. We Amish share your concern for safety in the work place. 
As an illustration of our concern, in a number of our larger 
communities we have set up Amish safety committees. The purpose of 
these committees are to work with Amish businesses to help make our 
people more aware of safety practices that need to be instilled in our 
work places to make them safer.
    As Old Order Amish, we desire to be a self supporting group, taking 
care of their own needy and elderly people, in their own way, without 
depending on the government for assistance. In the past we have been 
granted a number of exemptions from participating in various programs 
or requirements which our forefathers saw as being detrimental to our 
way of life or which our religious beliefs prohibit. We very much 
appreciate the many privileges which we have been granted over the 
years. It is our deepest desire to continue to be a self-supporting 
group and not to become a burden on society.
    We ask and plea of you men of authority to find some reasonable 
solution to this current problem and concern that we bring before you 
today. We wish you many blessings and the guidance from above in 
performing your many very important duties as elected officials of our 
country. May the Lord Bless you.

    Senator Specter. Thank you very much, Mr. Blank.
STATEMENT OF WILLIAM BURKHOLDER, OWNER, C.B. HARDWOOD 
            LUMBER CO., CENTERVILLE, PA
    Senator Specter. We turn now to Mr. Bill Burkholder, an 
Amish sawmill owner and operator from Centerville, PA, who was 
cited and fined by the Labor Department for child labor 
violations. His company, C.B. Hardwood, employs 50 people, most 
of whom are Amish. Thank you for coming in, Mr. Burkholder. We 
look forward to your testimony.
    Mr. Burkholder. Thank you. Mr. Chairman and committee 
members, thank you for the opportunity to present to you our 
concern regarding well-intended child labor laws and the 
adverse impact some of these laws are now having in our Amish 
community to our way of life.
    I am sure you are aware children in our community finish 
classroom school in eighth grade, learning the essentials of 
reading, writing, and arithmetic. While this learning is an 
important part of shaping their lives, preparing them for 
adulthood, their success with our way of life requires other 
skills as well. Many of our adult occupations have been learned 
by doing. Despite living in a technological world, we have 
limited ourselves by choice to occupations that leave time for 
our faith in God and for our families. Farming, carpentry, wood 
and metal shops, sawmills, harness making, and furniture making 
are some of the ways I am sure you recognize we earn our 
living. They are occupations that reinforce self-reliance 
within our group or community as well as the work ethic.
    While many of your own children might have a computer at an 
early age to begin to acquire the skills they may need to 
thrive in a modern, fast-paced world, our society requires 
faith and tradition to keep itself together to continue to 
thrive in our modern world. Again, this tradition is one of our 
faith in God, a belief in the importance of our families, of 
self-reliance within our group, and hard work. These beliefs 
and lessons we share with our children, even at a very young 
age. They learn by our example and by doing.
    We recognize that child labor laws were made and needed to 
correct abuse in the past. These laws still help ensure that 
children are not forced into unsafe, exploitive labor. We hope 
you recognize that we pursue the same goal as you regarding the 
safety of our children.
    In 1971, the Supreme Court, by its decision in Yoder v. 
Board of Education, recognized the intent and purpose for us to 
educate our children in our schools. Graduates from our Amish 
schools are most often eager to prove themselves as hard 
workers. They turn to farm, shop, or mill owners like myself, 
to earn an income to get started on a farm or other business on 
their own. This is a cycle that has repeated itself 
successfully throughout the history of our community in the 
United States.

                           PREPARED STATEMENT

    Despite rising land costs, property taxes, income taxes, 
school taxes, startup costs for businesses, buildings, 
equipment, and machinery, our young people overcome many 
obstacles to start off on their own in our community. Besides a 
commitment to hard work to achieve their goals, they also must 
rely on their families and business owners like myself to help 
them get started.
    [The statement follows:]
                Prepared Statement of William Burkholder

                              INTRODUCTION
    Thank you for the opportunity to present to you our concerns 
regarding well-intended child labor laws, and the adverse impact some 
of these laws are having in our Amish community, to our way of life.
    As I'm sure you are aware, children in our community finish 
classroom school in eighth grade, learning the essentials of reading, 
writing, and arithmetic. While this learning is an important part of 
shaping their lives, preparing them for adulthood, their success with 
our way of life requires other skills as well. Many of our adult 
occupations have been learned by doing. Despite living in a 
technological world, we have limited our selves, by choice, to 
occupations that leave time for our faith in God, and for our families. 
Farming, carpentry, wood and metal shops, saw mills, harness making and 
furniture making are some of the ways I'm sure you recognize we earn 
our living.
    They are occupations that reinforce self reliance within our group 
or community as well as the work ethic. While many of your own children 
might have a computer at an early age to begin to acquire the skills 
they will need to thrive in a modern, fast paced world, our society 
requires faith and tradition to keep itself together to continue to 
thrive in a modern world. Again, this tradition is one of our faith in 
God, a belief in the importance of our families, of self reliance 
within our group and hard work. These beliefs and lessons we share with 
our children, even at a very young age. They learn by our example and 
by doing. We recognize that child labor laws were made and needed to 
correct abuses in the past. These laws still help insure that children 
are not forced into unsafe, exploitive labors. We hope you recognize 
that we pursue the same goal as you regarding the safety of our 
children.
    In 1971, the Supreme Court, by its decision in Yoder v. Board of 
Education recognized the intent and purpose for us to educate our 
children in our own schools. Graduates from our Amish schools are most 
often eager to prove themselves as hard workers. They turn to farm, 
shop, or mill owners like myself, to earn an income to got started on a 
farm or other business on their own. This is a cycle that has repeated 
itself successfully throughout the history of our community in the 
United States.
    Despite rising land costs, property taxes, income taxes, school 
taxes, start up costs for business, buildings, equipment and machinery, 
our young people overcome many obstacles to start off on their own in 
our community. Besides a commitment to hard work to achieve their 
goals, they must rely on their families and business owners like myself 
to helm them get started.

    Senator Specter. Thank you very much, Mr. Burkholder.
STATEMENT OF HERMAN BONTRAGER, SECRETARY/TREASURER, 
            NATIONAL COMMITTEE FOR AMISH RELIGIOUS 
            FREEDOM
    Senator Specter. We now turn to Mr. Herman Bontrager, 
President of Goodville Mutual Casualty company in New Holland, 
PA. He grew up in an Amish home in Indiana, living in 
Pennsylvania for the past 25 years, a member of the Board of 
the National Committee for Amish Religious Freedom. Thank you 
for joining us, Mr. Bontrager. We look forward to your 
testimony.
    Mr. Bontrager. Senator Specter, committee members, friends, 
thank you for the opportunity to comment today.
    The National Committee for Amish Religious Freedom was 
organized to help the Amish regain their right to educate their 
own children. The committee's most notable achievement was when 
the late constitutional attorney, William Ball, successfully 
defended the Amish in Wisconsin v. Yoder in the U.S. Supreme 
Court. Some of the issues related to apprenticeships of Amish 
youth in family and Amish businesses are the same as the 
religious liberty issues in Wisconsin v. Yoder.
    The Amish and Mennonites, stemming from the 1525 Anabaptist 
stream of the Protestant reformation, believe that it is 
essential to imitate the life and spirit of Jesus and to follow 
his teachings in all of life. Faith for them is not only a 
personal belief, it is a corporate practice nurtured by the 
community. In the Amish way of life, the sacred and the secular 
are inseparably intertwined.
    Amish believe that children are a gift from God. Parents, 
supported by the Amish community of faith, take seriously their 
responsibility to prepare children for life. That formation 
consists of wisdom, such things as character, honesty, 
humility, long-suffering, concern for the welfare of others. It 
includes a work ethic, a commitment to quality, and the 
vocational skills that equip children for useful adult 
participation in the community in the Amish way of life.
    The Amish way of life is both a religious and a social 
commitment. Thus, it is important that work be performed in the 
context of a supportive community, in other words, at home or 
as close to home as possible. I quote Rev. William Lindholm, 
the chairman of our committee. ``Only Amish persons can model 
and teach children to be Old Order Amish. If the Amish cannot 
teach their own children Amish ways, their religious culture 
will be destroyed.''
    Thus, teaching by example is essential and is the preferred 
pedagogy of the Amish. Working together as a family or in the 
community forges a strong sense of identity, family cohesion, 
and a sense of responsibility.
    Amish vocational training is primarily accomplished through 
apprenticeships in the context of their extended families. They 
do not utilize high schools or vocational schools, technical 
schools, or colleges for training. Apprenticeships adequately 
meet the training needs of Amish young people and help to keep 
them integrated in the Amish community during those crucial 
adolescent years. This system keeps their children off the 
streets, out of prisons, and makes them contributors to the 
welfare of the community at a very early age. It is important 
to the Amish to train children to do the best they can in their 
work and to do it safely.
    So, I urge the Senate to enact legislation to amend the 
Fair Labor Standards Act in a manner that will make it possible 
for Amish and other religious groups such as Old Order 
Mennonites and Brethren to maintain their time-tested practice 
of apprenticeship. A labor code that makes it possible for the 
Old Order religious community to provide for vocational 
training will help to preserve the Old Order way of life.
    The Old Order way of life is, first and foremost, a matter 
of conscience based on religious faith. Apprenticeships, one of 
the few acceptable means available to Amish and Old Order 
groups to bring up their children in the heart of the 
community, are in effect a religious practice for them. 
Apprenticeships are the means for holistic formation of Old 
Order youth. They are not inappropriate child labor practices 
that exploit children in large factories to serve the profit 
motives of outside investors. It is of compelling interest to 
the state to assure that there is adequate provision for these 
religious groups, the Amish and other Old Orders, to train and 
bring up their children according to the dictates of their 
conscience and their faith.
    Anabaptist faith understands that all aspects of life, 
whether spiritual or material, whether worship or work, are to 
be lived humbly under the Lordship of Christ. Religious faith 
is the basis for the Amish way of life. The U.S. Constitution 
assures liberty for all citizens to believe and practice their 
faith as conscience dictates. The Nation's laws need to uphold 
that religious liberty. Amish apprenticeships do not present 
any threat to public health and safety nor to the welfare of 
any segment of our society.

                           PREPARED STATEMENT

    Wisconsin v. Yoder set a strong precedent in support of the 
Amish providing education and for training their children in 
ways that preserve their community. This is a matter of 
conscience, and thus we need legislative relief.
    [The statement follows:]
                 Prepared Statement of Herman Bontrager
    Thank you for the opportunity to talk with you about the unique 
training needs of Amish youth and preservation of the Amish way of 
life. I am interested in testifying on this matter for the following 
reasons: (a) I was raised in an Amish family and community in Northern 
Indiana and personally benefited from the vocational and values 
training that is an integral part of the Amish way of life; (b) I am 
concerned that the United States government unequivocally respect and 
support the freedom of conscience of all its citizens; and (c) I work 
with the National Committee for Amish Religious Freedom.
    The National Committee for Amish Religious Freedom was organized to 
help the Amish regain their right to educate their own children. The 
Committee's most notable achievement was when the late constitutional 
attorney William Ball successfully defended the Amish in Wisconsin v. 
Yoder in the U.S. Supreme Court. Some of the issues related to 
apprenticeships of Amish youth in family and Amish businesses are the 
same as the religious liberty issues in Wisconsin v. Yoder.
    1. The Amish and Mennonites, stemming from the 1525 Anabaptist 
stream of the Protestant reformation, believe that it is essential to 
imitate the life and spirit of Jesus and to follow his teachings in all 
of life. The Amish community is where individuals live out their faith. 
Faith for them is not only a personal belief, it is a corporate 
practice nurtured by the community. In the community Amish find support 
from fellow followers of Christ, live in harmony and support each 
other, and discern how to relate redemptively to the larger world. In 
the Amish way of life the sacred and the secular are inseparably 
intertwined.
    2. Amish believe that children are a gift from God. Parents, 
supported by the Amish community of faith, take seriously their 
responsibility to prepare children for life. That formation consists of 
wisdom, (including character, honesty, humility, long-suffering, 
concern for the welfare of others), a work ethic, commitment to 
quality, and the vocational skill that equip children for useful adult 
participation in the community, in the Amish way of life.
    3. The Amish way of life is both a religious and social commitment, 
nurtured within the Amish community as individuals live out their faith 
in everyday life activities. It is important that work be performed in 
the context of a supportive ethnic community, in other words, at home 
or as close to home as possible. Passing on the values of the Amish way 
of life and teaching the skills their children need for living in the 
community are a sacred trust assumed by Amish parents and the whole 
community. ``Only Amish persons can model and teach children to be Old 
Order Amish . . . . If the Amish cannot teach their own children Amish 
ways, their religious culture will be destroyed'' (Lindholm, 1993: 120-
121).
    4. The agrarian way of life, farming, is by far the best way to 
preserve the Amish way of life. Both parents are present, the family is 
together for work and play, children learn life skills by being with 
and observing their parents and other family members, children learn 
vocations by helping in the real work of their parents' livelihood (on 
the job learning, constantly supervised by someone who really cares for 
them), and children experience validation by doing work that 
contributes to the welfare of the family. Children are encouraged to be 
useful but are not pushed to perform tasks beyond their ability. 
Teaching by example is the preferred pedagogy of the Amish. Working 
together as a family forges a strong sense of identity, family cohesion 
and a sense of responsibility.
    5. Occupational diversification has increased among the Amish as 
farming is no longer available for all. Unavailability of farmland, the 
high cost of investment to start farming, and competition with high 
tech, corporate farming have forced Amish to adopt other vocations. To 
preserve the family as the primary work unit and to retain control over 
the work environment the Amish develop small businesses so they do not 
need to work in large outside businesses. This emerging adaptation to 
keep parents and children working together makes it possible to keep 
their young people in a setting where they are supervised by family or 
others from the Amish community.
    6. Whether it is on the farm or in the numerous other occupations 
they pursue through their own businesses and cottage industries, Amish 
vocational training is primarily accomplished through apprenticeships 
in the context of their extended families. They do not utilize high 
schools, vocational schools, technical schools or colleges for 
training. Apprenticeships adequately meet the training needs of Amish 
young people and help to keep them integrated in the Amish community 
during the crucial adolescent years. This system, which provides both 
technical training and values transmission in the context of the 
family, keeps children off the streets, out of prisons and makes them 
contributors to the welfare of the community at an early age. 
Apprenticeships are effective for this religious group and do not cost 
the state or federal governments anything.
    7. Motivated by love for their God-given children and a commitment 
to equip them with practical life skills for living in the Amish 
community, parents take very seriously the task of providing relevant 
training and formative experiences for their children. Learning life 
skills and developing a sense of responsibility are most effective when 
done in the context of real, meaningful work. It is important to the 
Amish to train children to do the best they can in their work and to do 
it safely. Thus, careful supervision and instruction are provided, 
preferably by the parents or another family member. Supervision by non-
family members is also dependable since it is the heartfelt desire of 
Amish people to retain their children in the community and to help them 
become productive contributors to the welfare of the Amish community.
    8. I urge you to enact legislation to amend the Fair Labor 
Standards Act in a manner that will make it possible for the Amish and 
other religious groups such as Old Order Mennonites and Brethren to 
maintain their time-tested practice of apprenticeship. A labor code 
that makes it possible for the Old Order religious community to provide 
for vocational learning in the context of the ethnic community and 
family will help to preserve the Old Order way of life. The Old Order 
way of life is first and foremost a matter of conscience, based on 
religious faith. Apprenticeships, one of the few acceptable means 
available to Amish and other Old Order groups to bring up their 
children in the heart of the community, are, in effect, a religious 
practice for them. Apprenticeships are the means for holistic formation 
of Old Order youth, they are not inappropriate child labor practices 
that exploit children in large factories to serve the profit motives of 
outside investors. It is of compelling interest to the state to assure 
that there is adequate provision for these religious groups, the Amish 
and other Old Orders, to train and bring up their children according to 
the dictates of their conscience and their faith.
    9. The relief sought through an amendment to the Fair Labor 
Standards Act is to provide flexibility that permits Amish and other 
Old Order youth ages 14 to 18 years to learn skills and values by 
working in what are the typical and common businesses operated by Amish 
and other Old Order groups. It is not to compromise their safety. 
Supervision by adult family members or other adults from the Amish 
community and certain limitations on activities these youth may perform 
are acceptable requirements.
    10. Anabaptist faith understands that all aspects of life, whether 
spiritual or material, whether worship or work, are to be lived humbly 
under the Lordship of Christ. Religious faith is the basis for the 
Amish way of life. The U.S. constitution assures liberty for all 
citizens to believe and practice their faith as conscience dictates. 
The nation's laws need to uphold that religious liberty. Amish 
apprenticeships do not present any threat to public health and safety 
nor to the welfare of any segment of society.
     Wisconsin v. Yoder set a strong precedent in support of Amish 
providing education and training for their children in ways that 
preserve their community.
    Thank you for your consideration in this matter that is vital to 
the interests of the Amish and other religious communities.

    Senator Specter. Thank you very much, Mr. Bontrager.
    I am going to have to recess the hearing for just a few 
minutes. I also serve on other committees like Judiciary, and 
they are waiting to get a quorum to vote out the new Deputy 
Attorney General and Solicitor General. So, if you will excuse 
me for just a few minutes. There are some other matters I want 
to conduct in this hearing. I will return.
    The recess is now in effect.
    [A brief recess was taken.]
    Senator Specter. Our hearing will resume.
    Mr. Bontrager, let me begin with you on your articulation 
of the issue of apprenticeship as a form of religion which is 
an articulation which would bring this kind of work into the 
Freedom of Religion Clause, the exercise of religion. Would you 
amplify as to how you would describe the apprenticeship being a 
form of religious activities?
    Mr. Bontrager. Well, I would not use the words exactly that 
way because the Amish way of thinking is you cannot separate 
the scared and the secular, work from all the other activities 
of life. So, apprenticeship is just part of being a faithful 
follower of Jesus, as is every other thing we do. For example, 
you and I, all of us in this room, from the Amish perspective, 
are doing all of this in the presence of God, and thus 
everything we do needs to honor God.
    Senator Specter. I thought that you had said--I made a note 
here--apprenticeship is a form of religious activity. Am I 
incorrect about that?
    Mr. Bontrager. Well, I said because of the reasons I just 
articulated, one of the few acceptable means--apprenticeships, 
that is, to bring up children in the heart of the community, 
are in effect a religious practice for them, but as is 
everything that one does in that sense.
    Senator Specter. Well, you might have a little harder 
justification for making apprenticeship a form of religious 
activity if you have a blank characterization of all activities 
being religious. But if there were something about an 
apprenticeship as a pursuit of religion as the Amish view it, 
it might put it in a different category.
    Mr. Bontrager. Apprenticeship the way the Amish do it, 
which needs to be in the context of the Amish community and the 
family, learning all of life's values and skills in that 
context in that sense is what I mean to----
    Senator Specter. It certainly is a form of religious 
activity to organize their lives in a different way from others 
to, as you say, have the telephone in a different spot, to not 
have carriage tops. Well, it is an interesting concept that I 
wanted to develop with you.
    I think it was your comment, Mr. Blank, that you said that 
the young people who work in the sawmills are some distance 
from the sawmills. What did you think of what Mr. Markey said 
about the danger of projectiles?
    Mr. Blank. Well, I would say that most of the sawmills that 
I have seen in operation, you have your saw where the logs are 
actually being sawed, and there are always some conveyors. Most 
of those conveyors I have seen are usually a length of probably 
100 foot or so away from the saw. I just do not see that----
    Senator Specter. You say the individuals are 100 feet or 
so?
    Mr. Blank. At least that. Would you not say so, Bill?
    Mr. Burkholder. Yes.
    Mr. Blank. What they are doing, they are just stacking 
lumber, sorting lumber.
    Senator Specter. And the projectile should not go nearly 
that far?
    Mr. Blank. No, I would not say.
    Senator Specter. What would you say the maximum distance a 
projectile could go?
    Mr. Burkholder. 90 feet, 100 feet. It's maximum.
    Senator Specter. How would it go that far?
    Mr. Burkholder. Well, by the time it leaves the saw, it 
goes through the edger, and when it goes out, they pile it out 
and push it down conveyors.
    Senator Specter. Well, that is the lumber going 90 feet or 
100 feet. Is that what you are saying?
    Mr. Burkholder. Yes.
    Senator Specter. A projectile is a piece of wood which 
would splinter off and might snap up and hit somebody. I never 
worked in a sawmill, but as a teenager, I worked in my dad's 
junk yard. And I used to run an oxyacetylene torch, and there 
would be a lot of sparks which would fly and you try to get 
away from the sparks. That is not quite a projectile, but you 
try to get out of the way.
    Mr. Blank. I just do not see that the projectile for that 
distance from the saw should be any problem or concern at all.
    Senator Specter. Well, what is the maximum distance, Mr. 
Blank, that you think a projectile might fly?
    Mr. Blank. Oh, I would say 15, 20 feet maybe.
    Senator Specter. How would it go that far?
    Mr. Blank. Well, when I am talking about projectiles, I am 
not looking at a big piece. I am looking at small chips of wood 
that might fly off the saw or something like that. Due to the 
saw being spinning, it might throw a piece off. But I do not 
see any big pieces flying that distance.
    Senator Specter. And if it went as far as 15 or 20 feet, 
how big would it be?
    Mr. Blank. Oh, that might be, I would say, a couple inches 
in diameter maybe or something like that, and that would be the 
maximum.
    Senator Specter. Do the people around there wear eye 
protection?
    Mr. Burkholder. As a rule, yes, eye protection and ear 
plugs.
    Senator Specter. If it hit you in the eye, it could do a 
lot of damage. If it hit you on the arm, it might give you a 
bruise. I got hit by a squash ball this morning.
    Mr. Burkholder. That is very, very seldom. I have never 
seen anything----
    Senator Specter. You have never been hit by a squash ball 
you say?
    Mr. Burkholder. I have never seen anything fly when--I have 
been in the mill business for 20 years.
    Senator Specter. I am just kidding you, Mr. Burkholder, 
about the squash ball, but I am making the point that if you 
get hit in the arm, you are not likely to be injured severely. 
You might have a bruise. You probably would not even have a 
cut.
    Well, I want to examine this, and that is why I have asked 
Mr. Markey to examine it to see what the risks are and how we 
might protect----
    Mr. Burkholder. The man that cuts the wood--if the off-
bearer takes the wood away--and if that hits that saw, I know 
when I was a little boy, there was a man about 21 years old and 
the fellow let that piece of wood drop on the saw and it took 
him right over the top and it caught his head right there and 
killed him instantly. But you have to be very cautious with 
that.
    Senator Specter. You are talking about the guy who is 
operating the saw right on the spot.
    Mr. Burkholder. Right.
    Now, what we are asking to work is from the opposite 
direction. It would not be anything in that direction at all.
    Senator Specter. So, the young people would not be in the 
line of fire.
    Mr. Burkholder. No.
    Senator Specter. It must have been a very unusual thing for 
a man to be killed.
    Mr. Burkholder. Right. It is very unusual.
    Senator Specter. A blow to the head would have to be 
ordinarily pretty strong, hit a very tender spot.
    Mr. Burkholder, tell us a little about the situation where 
you were fined by the Department of Labor. What occurred on 
that?
    Mr. Burkholder. Well, I have six boys and I had them in the 
pallet shop.
    Senator Specter. Six of your sons?
    Mr. Burkholder. No. My boys were there when they was young. 
They started out as soon as they were out of school, but they 
were old enough that they did to go back that far. They did not 
get my boys.
    I had them in the pallet shop on the mill, and we take our 
lumber from the mill. We take it 200 feet away from the 
sawmill, and we lay it on a conveyor. It moves real slow and 
the boys----
    Senator Specter. So, how close were these boys? You had 
eight boys or six boys?
    Mr. Burkholder. These were the lumber after it was sawed.
    Senator Specter. Did you have six boys or eight boys?
    Mr. Burkholder. Six boys.
    Senator Specter. And how close were the boys to the saw?
    Mr. Burkholder. About 200 feet from the saw. And that is 
where they were piling the lumber, and they said the lumber was 
too heavy.
    Senator Specter. So, the fine was for the heaviness of the 
lumber.
    Mr. Burkholder. Yes.
    Senator Specter. How much does the lumber weigh?
    Mr. Burkholder. Well, at times you might get a board that 
weighs 100 pounds, but very seldom.
    Senator Specter. Well, if you had a board that weighed 100 
pounds, does the boy have to pick it up?
    Mr. Burkholder. No, not completely. He drags the board over 
and puts it on the cart and then grabs the other end and shoves 
it on over.
    Senator Specter. When I was 15, I used to have to lift up 
3-inch tubing which was 30 feet long and 10 pounds a foot. I 
had to lift 150 pounds up to throw it on a bolster. Where was 
the Department of Labor on that case, Mr. Markey?
    We ought to take a look at that too, Mr. Markey, to see 
about weight so that you do not have to lift something which is 
unreasonable. I would like your judgment, Mr. Markey--we are 
going to get you into the ergonomics hearing now--as to how 
much you can lift to see if you have a restriction.
    We want to protect the boys. I know you men want to protect 
the boys. Is that not right, Mr. Blank?
    Mr. Blank. Yes.
    Senator Specter. Mr. Burkholder?
    Mr. Burkholder. Yes.
    Senator Specter. Mr. Bontrager?
    Mr. Bontrager. Yes.
    Senator Specter. Do you have one more comment, Mr. 
Burkholder?
    Mr. Burkholder. Yes. They said if the lumber was dry, they 
could do it, but as long as it was green, they would not allow 
it.
    Senator Specter. We have a young man here today who I 
understand has some experience in this line. He is not a 
witness, but I would like to hear from him. Mr. Noah Byler, 
would you step forward please? Come up and have a chair.
STATEMENT OF NOAH BYLER
    Senator Specter. I met Mr. Byler in my office earlier this 
morning. Mr. Byler, you do not have to testify because you are 
not on the witness list and nobody has advised you. But I hope 
you would be willing to say a few words about your own 
experience. I understand you are 21 today.
    Mr. Noah Byler. Yes.
    Senator Specter. Do you mind testifying?
    Mr. Noah Byler. I do not mind.
    Senator Specter. And you were 17 when the Department of 
Labor issued a citation and a fine for your work in a sawmill. 
Is that correct?
    Mr. Noah Byler. Yes.
    Senator Specter. Tell us what happened there.
    Mr. Noah Byler. I was piling lumber on a sawmill, and they 
made me quit. They said it was too heavy, and I was too close 
to machinery.
    Senator Specter. How close to the machinery were you?
    Mr. Noah Byler. I was piling lumber behind the edger. From 
the saw, it was about 60-70 feet.
    Senator Specter. Were there any projectiles anywhere near 
you?
    Mr. Noah Byler. No. And the issue that he spoke about the 
projectiles falling down--it would not matter if it would be a 
young guy or an old guy, we would not want it falling on 
anybody. I just cannot see a lumber pile falling down being any 
trouble as far as the child labor law.
    Senator Specter. Why do you say that?
    Mr. Noah Byler. Well, they pile the lumber, but you can 
walk through anywhere and something might happen, even if you 
are not working. I just cannot see where he has a point there.
    Senator Specter. You were lifting lumber at that time?
    Mr. Noah Byler. Yes.
    Senator Specter. How heavy was it?
    Mr. Noah Byler. The boards that I lifted, 50 pounds at the 
most. But I had to lift one end, put it on the pile.
    Senator Specter. So, you lift one end of a 50 pound board?
    Mr. Noah Byler. Yes.
    Senator Specter. So, that makes it effectively about half 
that, or 25 pounds. You look like you are a pretty strong guy. 
Did that exert you any?
    Mr. Noah Byler. I am physical in shape and I am okay. It 
never hurt me a bit.
    Senator Specter. What was the fine that was issued?
    Mr. Noah Byler. I am not sure. John paid it. My boss.
    Senator Specter. Well, I think this is very helpful. What 
we are going to have to do is circulate this testimony with the 
other Senators so they understand just exactly what you are 
looking for here, an opportunity to carry on your way of life, 
which you consider to be part of your freedom of religion. You 
cited the Yoder case.
    We have a gentleman in the audience who has raised his 
hand. This is irregular, but come forward. We will hear from 
you.
STATEMENT OF JOHN BYLER
    Mr. John Byler. I just want to say a few words. He was my 
employee, and I was fined $3,000.
    Senator Specter. You are talking about----
    Mr. John Byler. Noah.
    Senator Specter. You were fined $3,000?
    Mr. John Byler. The other boy was 18 years old.
    Senator Specter. Would you identify yourself for the 
record, please? This young lady who is the stenographer is 
getting very nervous. She is going to have to write down a 
voice out of the audience. So, if you would come forward and 
identify yourself, we would appreciate it. What is your name, 
sir?
    Mr. John Byler. John Byler.
    Senator Specter. Where is your business located?
    Mr. John Byler. Harrisville, PA.
    Senator Specter. And tell us a little about the citation 
and the fine please.
    Mr. John Byler. Noah and his brother James is two of my 
employees. And the Labor Department come in and they fined me 
$3,000. James was 18 years old. Noah was 17 years old, but they 
went back 2 years. They fined them for piling the boards, like 
they said, 60-70 feet away from the equipment. The boards 
weighed 50 pounds at the most, slid them off the pile, just 
like----
    Senator Specter. Were they in danger of projectiles from as 
far away as they were?
    Mr. John Byler. No. No danger of any kind. You had like a 
foot or 2 that you could walk between the piles. The piles was 
2-3 feet high at the most. There is no danger whatsoever.
    They had to quit their jobs, had to quit working, piling 
the lumber, and I had to pay my $3,000 fine.
    Really everything else, you know, just like Christ and the 
rest of them say, we try to teach them learning by doing and 
our faith and the ways of the Lord and tried to raise them.
    Senator Specter. Thank you very much, sir.

                         CONCLUSION OF HEARING

    Thank you all very much for being here, that concludes our 
hearing.
    [Whereupon, at 10:44 a.m., Thursday, May 3, the hearing was 
concluded and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 
</pre></body></html>
